HHS/OIG - Audit: "Audit of Medicaid Costs Claimed for Personal Care Services by the Minnesota Department of Human Services, October 1, 1998 through September 30, 1999," (A-05-01-00044)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Costs Claimed for Personal Care Services by the Minnesota
Department of Human Services, October 1, 1998 Through September 30, 1999,"
(A-05-01-00044)
April 23, 2002
Complete
Text of Report is available in PDF format (367 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine whether
payments for services provided during October 1, 1998 through September 30,
1999 were: (i) provided by eligible providers (ii) medically necessary, and
(iii) in compliance with the required Medicaid billing practices.  We found
that the State agency had performed only limited program monitoring to assure
that compliance requirements were met. Based on a statistical sample of 100 personal care service claims,
we identified 33 improper payments amounting to $14,844 and 17 claims lacking
compliance documentation for requirements that negatively affect the
quality of service rather than the propriety of the payment.  These later
non-compliance situations may affect the well being of a large number of vulnerable
recipients and should be addressed by increased State agency monitoring of the
personal care program.   We recommended that the State agency recover
payments for the improper claims totaling $14,844 and develop oversight mechanisms
that would ensure compliance with program requirements.  The State agency
concurred with our findings and recommendations.